                                                                 Issue Date
                                                                     November 05, 2007
                                                                 Audit Report Number
                                                                        2008-LA-0001




TO:         John Garvin, Acting Deputy Assistant Secretary, Multifamily Housing, HT



FROM:       Joan S. Hobbs, Regional Inspector General for Audit, Region X, 0AGA

SUBJECT: The Los Angeles Multifamily Hub Did Not Properly Monitor Its Performance-
           Based Contract Administrator, Los Angeles LOMOD

                                     HIGHLIGHTS

 What We Audited and Why


      We audited the Los Angeles Multifamily Hub regarding its monitoring of its annual
      contributions contract with its performance-based contract administrator (contractor), Los
      Angeles LOMOD (LOMOD), a nonprofit organization under the Housing Authority of
      the City of Los Angeles. We performed this audit due to concerns identified during our
      earlier examination of LOMOD transactions. Our overall audit objective was to
      determine whether the U.S. Department of Housing and Urban Development (HUD)
      appropriately monitored LOMOD with respect to the annual contributions contract.

 What We Found

      The Los Angeles Multifamily Hub did not properly monitor its contractor, LOMOD, in
      accordance with HUD guidance or its annual contributions contract with LOMOD.
      Specifically, the Los Angeles Multifamily Hub did not follow up on the findings in its
      2004 annual compliance review of LOMOD in a timely manner. In addition, it made
      inappropriate decisions regarding the assessment and reversal of disincentives (penalties
      against LOMOD for work not adequately performed). It also inappropriately moved
      LOMOD to the “full implementation” stage of its contract for two required performance
      standards (activities) without properly supporting the decision. Further, it improperly
      allowed retroactive rent increases when owners did not make submissions within required
      timeframes and did not monitor LOMOD’s activities with regard to the performance
      standard relating to review of monthly vouchers.
 What We Recommend


     We recommend that the deputy assistant secretary for multifamily housing ensure that
     LOMOD is not reimbursed for the $105,059 reduction in incentive fee (bonus for work
     above and beyond the minimum) for those findings in the 2004 compliance review that
     were improperly reversed. We also recommend that the deputy assistant secretary for
     multifamily housing assess disincentives or reduce LOMOD’s incentive fee $1,360,160;
     require the operations officer and the contract administrator oversight monitor (oversight
     monitor) to work together when assessing disincentives and that a separate multifamily
     hub review all contractor appeals of disincentives; return LOMOD to the transitional
     phase for standards 3 and 14 until the hub can show that LOMOD has met the acceptable
     quality level for three consecutive months; and begin monitoring LOMOD, in accordance
     with HUD guidance, with respect to its activities under standard 6 relating to the review,
     authorization, and payment of monthly vouchers to owners so that it doesn’t put $13.6
     million at risk each month.

     For each recommendation without a management decision, please respond and provide
     status reports in accordance with HUD Handbook 2000.06, REV-3. Please furnish us
     copies of any correspondence or directives issued because of the audit.

Auditee’s Response


     We provided the auditee a draft report on September 11, 2007, and held an exit
     conference with officials on October 2, 2007. The auditee provided its response on
     October 19, 2007, and generally disagreed with our report findings. We evaluated that
     response and made appropriate changes to the report based on that response. The
     complete text of the auditee’s response, along with our evaluation of that response, can be
     found in appendix B of this report.




                                              2
                            TABLE OF CONTENTS

                                                                                     4
Background and Objectives


Results of Audit
   Finding 1: The Los Angeles Multifamily Hub Did Not Properly Monitor LOMOD         6
              in Accordance with HUD Guidance or Its Annual Contributions Contract



Scope and Methodology                                                                26


Internal Controls                                                                    28

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use                 30
   B. Auditee Comments and OIG’s Evaluation                                          31
   C. Schedule of Projects That Did Not Comply with the Annual Contributions         47
      Contract




                                            3
                     BACKGROUND AND OBJECTIVES

In May 1999, the U.S. Department of Housing and Urban Development (HUD) issued a request
for proposals for contract administration services for project-based Section 8 housing assistance
payments contracts under Section 8 of the United States Housing Act of 1937. This request for
proposals covered contract administration for most HUD-administered projects.

Los Angeles LOMOD (LOMOD) was awarded an annual contributions contract in the 16th
round. The contract was signed in March 2003 and implemented December 1, 2003. Under the
contract, LOMOD was to provide contract administration services for up to 48,235 housing units
valued at up to $16.8 million per year. The contract includes 16 standards or activities for which
the contractor is responsible.

Lines of Responsibility

The HUD headquarters Office of Housing Assistance Contract Administration Oversight’s
responsibilities include administering the outsourcing of project-based Section 8 contract
administration and subsidy contracts under multifamily rental subsidy programs. The office
monitors, oversees, and provides technical assistance to performance-based contract
administrators and assures that third-party, contract-administered, project-based, Section 8-
subsidized properties continue to meet HUD’s goal of providing decent, safe, and sanitary
housing to low-income families.

The primary responsibility for monitoring and oversight of contractors rests with the multifamily
hub and the program centers. The hub director and operations director should have limited direct
contact with the contractor. Although Hub directors have the ultimate responsibility in the field,
the supervisory project manager oversees the day-to-day interaction with the contractor. The
oversight monitor is responsible for ensuring overall contractual compliance on the part of the
contractor and for initiating corrective compliance actions.

Two Phases of the Contract

There are two phases in the contract process, transitional and full implementation. During the
transitional phase, HUD is supposed to work closely with the contractor to provide assistance, to
ensure that the work is done correctly, and to ensure that the work is done in accordance with
HUD’s guidelines and regulations. During this phase, the contractor submits core task work
products to the local HUD office on a monthly basis, and HUD’s oversight monitor assesses the
quality of the contractor’s work.

Once the contractor has achieved an acceptable level of quality, based on specific indicators for
each of the contract’s required performance standards for three consecutive months, the contract
is moved into the full implementation phase. After movement to full implementation, HUD
reporting requirements are lifted. Ultimately, the local multifamily hub office determines
whether the contractor moves to full implementation. The contractor is supposed to reach full
implementation on each required incentive-based performance standard within one year of the
start of the contract.

                                                4
Acceptable Quality Level

For each of the tasks LOMOD performs under the annual contributions contract with HUD, it is
required to maintain an acceptable level of quality. We reviewed the annual contributions
contract and HUD’s Monitoring and Evaluation Policies and Procedures requirements for
standards 1–management and occupancy reviews, 3–rent adjustments, and 14–contract renewals,
since these are the standards for which the oversight monitor assessed the disincentives we
reviewed. These documents require that LOMOD for standard 1, submit 95 percent of the
required management and occupancy reports within 30 calendar days after scheduled completion
of the review; for standard 3, correctly process 100 percent of rent adjustments within 30 days or
by the housing assistance payments contract anniversary date for annual adjustment factor rent
adjustments; and for standard 14, correctly execute 90 percent of renewal housing assistance
payments contracts 60 calendar days before contract expiration. These standards are measured
each month.

Incentive Fee or Disincentive

An incentive fee may be earned for performance that exceeds the acceptable quality level on
standards 1 – management and occupancy reviews, 2 – civil rights compliance, 5 – owner opt-
out and contract terminations, and 14 – contract renewals. The incentive fee works as a bonus
paid for work performed above and beyond the minimally acceptable. However, the contractor
may also be assessed a disincentive for performance that fails to meet the acceptable quality
level on any of the 16 standards. A disincentive is a penalty that is assessed for work
performance that falls below the minimally acceptable.

The incentive fee pool is calculated for LOMOD at 50 percent of the basic fee each month and is
paid at the end of each quarter. LOMOD will receive 20 percent of the incentive fee pool if 95
percent of its submissions for standard 14 are correct and completed on time. It will receive an
additional 10 percent of the incentive fee pool if 100 percent of its submissions are correct and
completed on time. If less than 90 percent of its submissions are correct and completed on time,
a disincentive will be assessed. The disincentive is calculated by taking a 3 percent reduction in
basic fee for every 1 percent that performance falls below the acceptable quality level. The
disincentive for standard 3 is calculated by taking a 1 percent reduction in basic fee for every 1
percent that performance falls below the acceptable quality level of 100 percent of transactions
being processed correctly and on time. However, if performance falls below 75 percent of the
acceptable quality level, a 50 percent reduction in basic fee is made. LOMOD may appeal a
disincentive assessment.

Specifically, we reviewed the appropriateness of (1) HUD’s handling of the 2004 annual
compliance review findings; (2) assessed and reversed disincentives; (3) movement of LOMOD
to full implementation; (4) retroactive rent increases; and (5) HUD’s monitoring of standard 6 –
review of monthly vouchers to determine whether HUD appropriately monitored LOMOD with
respect to the annual contributions contract.




                                                5
                                RESULTS OF AUDIT


Finding 1: The Los Angeles Multifamily Hub Did Not Properly Monitor
LOMOD in Accordance with HUD Guidance or Its Annual
Contributions Contract
The Los Angeles Multifamily Hub

   •   Did not follow up on the findings in its 2004 compliance review of LOMOD in a timely
       manner,
   •   Improperly assessed 9 of 14 disincentives that were later reversed by the operations
       officer and improperly reversed 5 of the 14,
   •   Moved LOMOD into full implementation for standards 3 and 14 and did not properly
       support the decision,
   •   Allowed LOMOD to provide owners of projects requesting rent increases under the
       annual adjustment factor or the mark-up-to-market option with retroactive rent increases
       totaling $38,839 although the owners’ submissions were not made within the required
       timeframes, and
   •   Left its contractor’s activities pertaining to voucher review and disbursement of payments
       to project owners unmonitored.

This noncompliance occurred because there was a lack of communication between hub
management and the oversight monitor; HUD did not have written policies and procedures for
training of the oversight monitor or for dealing with disincentive appeals; it ignored or
misinterpreted policies and procedures that were in place; it disregarded the recommendations of
its project managers as well as concerns of the Office of Inspector General (OIG); and the
oversight monitor did not have access to HUD systems to perform required monitoring.

HUD improperly reversed $105,059 in disincentives applied as a result of its 2004 compliance
review. In addition to not promptly resolving the findings in the compliance review, LOMOD
continued to make the same or similar mistakes and should have been assessed more than $1.3
million in additional disincentives or in reductions to the incentive fee. Also, HUD did not
ensure that LOMOD correctly processed owner rent adjustment requests or correctly executed
housing assistance payments contract renewals. Finally, HUD did not ensure that vouchers were
reviewed and properly processed in a timely manner and in compliance with HUD requirements.
Consequently, the Los Angeles Multifamily Hub did not fulfill its monitoring responsibilities.




                                               6
    HUD Did Not Follow Up on the Findings of Its 2004 Annual Compliance Review of
                           LOMOD in a Timely Manner


HUD issued its first annual compliance review of LOMOD on November 30, 2004, for the
period covering December 1, 2003, to November 30, 2004, as required by HUD’s Monitoring
and Evaluation Policies and Procedures. LOMOD’s latest appeal of the findings resulting from
this review was not resolved until March 23, 2007. The unresolved findings and LOMOD’s
continued poor performance occurred because of a lack of communication between hub
management and the contract administrator oversight monitor. Consequently, $105,059 in
disincentives or in reductions in incentive fees associated with compliance review findings was
improperly reversed and more than $1.3 million in disincentives or in reductions in incentive
fees that should have been applied for other incorrect work were not. These findings should be
resolved to ensure that owners and tenants receive the subsidy amounts they deserve.

 The First Annual Compliance
 Review Identified 36 Findings


       HUD’s 2004 annual compliance review of LOMOD identified 36 findings. Twelve of
       these findings resulted in reductions in incentive fees or in disincentives being assessed
       against LOMOD totaling $244,353.

       Examples of findings from the compliance review include the following:

       •     Contrary to requirements, LOMOD did not verify that a rent schedule was complete
             and processed an incomplete rent schedule that did not include the nonrevenue
             units. A disincentive was assessed due to this finding.

       •     LOMOD (or its subcontractor) did not calculate the correct rental adjustment
             amount, resulting in the owner’s receiving higher rents than it was entitled to
             receive. A reduction to the incentive fee was applied based on this finding. In
             addition, on another finding in which the rent adjustment amount was incorrectly
             calculated, a disincentive was assessed. Although the reduction to the incentive fee
             was appealed, the disincentive was not appealed.

       •     LOMOD’s input into HUD’s Real Estate Management System did not always
             reflect the actual events as supported by LOMOD’s records. Specifically, a key
             date entered into HUD’s system was not in accordance with LOMOD’s records. In
             another instance, a date was missing from a field in HUD’s system. In addition,
             HUD informed LOMOD in this finding that LOMOD must ensure that data posted
             to the Real Estate Management System are accurate. Disincentives were not
             assessed based on these findings.

       •     LOMOD delayed processing transactions for three projects while waiting for and
             pondering HUD guidance. HUD recommended that when LOMOD does not meet
             the timelines required by the annual contributions contract, disincentives should be
             assessed. Disincentives were not assessed at that time.
                                                7
    •    LOMOD made changes to an owner’s debt service amount without documenting
         the justification for the change or the owner’s knowledge of the change. HUD
         recommended that LOMOD refrain from making changes to the owner’s
         submission without justification and the owner’s knowledge. LOMOD was also
         required to ensure that its files document correct conclusions. In addition, LOMOD
         was required to correct the error and resubmit the transaction to HUD for review.
         LOMOD’s incentive fee was reduced as a result of this finding.

LOMOD Appealed the Findings



    From January 7, 2005 through June 20, 2005, LOMOD appealed the findings and twice
    sent action plans to the Los Angeles Multifamily Hub. LOMOD’s appeals generally
    focused on the facts surrounding the specific deficiencies cited in the findings not the
    actual requirements. The appeals and action plans were rejected because the
    documentation provided did not support why the findings and disincentives should be
    reversed. The current hub director decided that there were not enough specifics in the
    report to resolve and close the findings. As a result, he told LOMOD that he would no
    longer follow up on the findings but that they would be covered in a future compliance
    review. That review was scheduled to be completed July 31, 2007, but has not yet been
    forwarded to our office.

    LOMOD also appealed the findings to the deputy assistant secretary for multifamily
    housing at the headquarters level. This appeal was an abbreviated version of the earlier
    appeals. It only addressed findings related to disincentives and reductions to LOMOD’s
    incentive fee. Two of the findings for which disincentives were assessed were not
    contested in the appeal. On January 3, 2007, the appeal was returned to the Los Angeles
    Multifamily Hub for review. On March 23, 2007, the operations officer granted the
    appeal. We reviewed the appeal and response and found that, based on Section 8
    guidance and the annual contributions contract, three of the appealed findings should not
    have been reversed and the other findings were not valid. In addition, the findings that
    were not impacted by disincentive assessments or reductions in incentive fees were not
    addressed in this latest appeal and have not been resolved.


Three Findings from the
Annual Compliance Review
Should Not Have Been
Reversed


    Our review of HUD’s decision to grant LOMOD’s appeal revealed that, based on Section
    8 guidance and the annual contributions contract, three findings that were reversed should




                                            8
         not have been. Two of these findings had been assessed a reduction in the incentive fee
         totaling $105,059. 1

         For example, a disincentive was assessed because LOMOD did not process the
         submission for Steelworkers Oldtimers in a timely manner. HUD’s operations officer
         granted LOMOD’s appeal on this finding based upon poor information initially provided
         by HUD and by the six-month absence of an oversight monitor to provide LOMOD with
         advice in processing submissions. However, our review of the appeal documents that
         LOMOD submitted indicated that according to LOMOD’s timeline of events, it requested
         funding for this project on April 2, 2004. HUD did not fund this project and did not
         perform any follow up on this transaction during the next six months. However,
         LOMOD also did not document any further attempt to complete the process until October
         1, 2004, when it began the process for the next contract renewal. During these six
         months, LOMOD should have followed up on HUD’s transmittal of the annual
         contributions contracts to complete the process and documented that follow-up.

         In another example, regarding project Canyon Rim Apartments, the incentive fee was
         reduced because LOMOD renewed the contract without determining whether the correct
         renewal option was used. In addition, there was no supporting documentation in the file
         to show that the option selected was reviewed for accuracy. Further, the file did not show
         that the owner issued the required tenant notification. HUD’s operations officer granted
         LOMOD’s appeal of this finding because HUD authorized the processing of the contract
         using the option selected. The operations officer further stated that the lack of
         documentation of the required tenant notification did not indicate that notification was
         not issued. We agree with the operations officer that LOMOD was not responsible for
         the option used because HUD authorized the selected option. However, according to
         exhibit A of its annual contributions contract with HUD, LOMOD is required to verify
         that owners of projects with expiring Section 8 contracts provide the required notice to
         tenants. Since this is an element of the task, LOMOD did not demonstrate that this step
         was taken (it could not be verified to the file), and LOMOD admitted that this notification
         was not included in the file, it did not earn its incentive fee.


    LOMOD Continued to Make
    Mistakes Similar to Those
    Noted in the Annual
    Compliance Review


         During the time in which the annual compliance review findings went unresolved,
         LOMOD did not implement new controls or implement an action plan to prevent the
         same or similar mistakes from occurring, resulting in more than $1.3 million in
         disincentives or reductions in incentive fees that should have been assessed. Specifically,
         LOMOD did not always process rent adjustments and housing assistance payments
         contract renewals in a manner that complied with program requirements. Our review of

1
 One finding did not result in a disincentive or reduction in incentive fee because it was included in the calculation
with another finding but did not change the calculation. The other finding was not appealed.
                                                           9
        84 submissions revealed 40 2 with deficiencies (see appendix C for a listing of projects,
        deficiencies, and disincentives). These deficiencies included the following:

        •      LOMOD processed 19 of the 84 submissions reviewed in which rent schedules
               were inconsistent with the information shown in HUD’s Real Estate Management
               System without the required notification to HUD. In addition, LOMOD processed
               one submission without a rent schedule. According to the instructions agreed upon
               by HUD multifamily management and LOMOD on February 19, 2004, and the
               Policy and Procedures issued by the Los Angeles multifamily office on August 16,
               2004, when there is a discrepancy in the Section 8 and/or non-revenue-producing
               units identified between the rent schedule and the Real Estate Management
               System’s Occupancy screen, LOMOD is required to notify HUD of the unit
               discrepancy because LOMOD does not have access to make the changes to the
               Occupancy screen.

        •      LOMOD did not correctly calculate the rent amount when it renewed four contract
               rents. It was notified in the first annual compliance review in November 2004 that
               it must correctly calculate rental adjustments. In that review, it was assessed a
               disincentive and had its incentive fee reduced as a result. Therefore, it was aware
               that rental adjustments must be correctly calculated.

        •      In 20 of the submissions reviewed, LOMOD removed a key date from HUD’s Real
               Estate Management System, and in one submission reviewed, it entered an incorrect
               date into the system. In addition, the files for one submission did not include
               support for the date LOMOD entered into the system so the date could not be
               verified. LOMOD is required, as stated in the Project-Based Contract
               Administration Real Estate Management System input guide, to enter the date the
               owner signed the submission, the date the owner’s submission package was initially
               received, and the date the complete package was received from the owner. Further,
               as noted above, LOMOD was informed in the first annual compliance review that it
               must ensure that data posted to the Real Estate Management System are accurate.

        •      LOMOD did not process three of the submissions in accordance with the
               timeframes in its annual contributions contract. In all three of the cases, it did not
               process the submissions within 30 days of receipt of a complete package from the
               owner or contributed to the owner’s not submitting a complete package in a timely
               manner. In one case, it did not send the submission to HUD at least 60 days before
               contract expiration.




2
This number does not include the transactions shown in appendix C that are also shown in the next section for
which the disincentive or reduction in incentive fee was improperly reversed.
                                                        10
 The Compliance Review
 Findings Remained Unresolved
 Because of a Lack of
 Communication


      The findings that resulted from the 2004 annual compliance review remained unresolved
      because of the Los Angeles Multifamily Hub’s inability to follow up with LOMOD
      regarding the findings identified in the review. A contributing factor was the lack of
      communication between hub management and the oversight monitor. The Los Angeles
      operations officer told us that he tried to resolve the findings but could not identify
      exactly what needed to be done to resolve them. When he spoke with the oversight
      monitor, he received an unsatisfactory response with regard to the steps that needed to be
      taken to resolve the findings. However, since that time, when reviewing specific
      recommendations for disincentive assessments, he has not requested any clarification
      from the oversight monitor, project managers, or contractor. Consequently, findings
      related to $105,059 in assessed disincentives and reduced incentive fees were improperly
      reversed.

      Further, hub management did not follow up with the issues identified in the report
      because management thought that they would get resolved in the 2005 annual compliance
      review. However, that review did not take place. Additionally, our review indicated that
      the annual compliance review findings for which disincentives were assessed or incentive
      fees were reduced can be resolved. Consequently, it is reasonable to infer that the
      remaining 24 of 36 findings can also be resolved. Also, these findings should be resolved
      to ensure that owners and tenants receive the subsidy amounts they deserve. In addition,
      LOMOD continued to submit inadequate submissions to HUD for review and funding,
      resulting in more than $1.3 million in disincentives or incentive fee reductions that should
      have been assessed.

HUD Did Not Ensure That
LOMOD Corrected Past
Deficiencies

      HUD did not ensure that LOMOD corrected the deficiencies from the first annual
      compliance review and did not ensure that it put policies and procedures in place to
      prevent the same or similar deficiencies in the future. Consequently, HUD cannot ensure
      that LOMOD processed vouchers in a timely manner or that vouchers were reviewed,
      processed, and approved by LOMOD in compliance with HUD requirements. Further,
      HUD cannot ensure that LOMOD correctly processed rent adjustments and contract
      renewals in a timely manner.




                                              11
                  HUD Inappropriately Assessed 9 of 14 Disincentives and
                         Inappropriately Reversed 5 of the 14


We reviewed the Los Angeles Multifamily Hub’s files for all of the 14 disincentives that were
assessed by the oversight monitor between May 2005 and April 2006 and were later reversed by
the operations officer. We also interviewed hub, headquarters, and contractor staff and reviewed
additional documents provided to determine whether the reversals of the disincentives were
appropriate. Our review revealed that nine of the disincentives should not have been assessed
and the reversal of five of the disincentives was inappropriate.


 There Was no Basis for
 Assessing Nine of the
 Disincentives

       There was no basis for the oversight monitor’s assessment of nine of the disincentives,
       and they were correctly reversed by the hub’s operations officer. In some cases, these
       disincentives were inappropriately assessed because

           •   HUD did not provide timely or adequate information to LOMOD,
           •   HUD did not adequately clarify policies to LOMOD,
           •   The oversight monitor did not correctly interpret the criteria, and/or
           •   The oversight monitor did not distinguish between a LOMOD error and one
               caused by HUD.


 We Discussed the Disincentives
 With the Oversight Monitor


       We consulted with the oversight monitor on the disincentives assessed because she
       provided us with the documentation to support her assessment of disincentives and she
       represented to us that she was responsible for assessing the disincentives. HUD’s
       Monitoring and Evaluation Policies and Procedures says the oversight monitor is
       responsible to draft policies and procedures that impact contract administrator oversight,
       provide guidance to the supervisory project manager, and oversee the work of the
       supervisory project manager and the project managers, and is the team leader for
       compliance reviews. The oversight monitor told us that once she receives the
       recommendation for a disincentive from the project manager or supervisory project
       manager, she reviews the package and if she agrees with the assessment, she will send an
       email to LOMOD identifying the issue. She then reviews LOMOD’s response and will
       either rescind the disincentive or write up a formal disincentive recommendation and
       send it back to LOMOD.




                                               12
 The Operations Officer
 Inappropriately Reversed Five
 of the Disincentives
     The operations officer inappropriately reversed five of the disincentives assessed by the
     oversight monitor and did not have written policies and procedures to follow when
     making these decisions. Although the operations officer told us that he reviewed all
     emails and attachments that passed back and forth between HUD and LOMOD before he
     decided whether a disincentive should be reversed, the informal procedures that he
     followed did not include any steps for requesting clarification from the oversight monitor,
     the supervisory project manager, project managers, or LOMOD. Further, the informal
     procedures he followed failed to include steps to research written criteria applicable to
     the specific issues or to follow up with other HUD departments as applicable.
     Consequently, in some cases, the operations officer was unable to distinguish between
     system malfunctions and errors made by LOMOD and he made conclusions not
     supported by the documents he reviewed.

  LOMOD Was Not Penalized for
  Unacceptable Performance

     When HUD improperly assessed disincentives both HUD and LOMOD wasted time and
     effort to resolve the issue. When disincentives were improperly reversed, funds were
     taken away from HUD. In this case, HUD did not penalize LOMOD when appropriate to
     obtain acceptable performance in a timely manner. In addition, if LOMOD does not pay
     for its mistakes, through disincentives or reductions in its incentive fee, it will not correct
     its substandard performance.

Lack of Management Controls
Contributed to the Incorrect
Assessments


     HUD’s lack of management controls contributed to the incorrect assessments. HUD did
     not have specific written policies and procedures to ensure that the oversight monitor was
     properly trained. The oversight monitor was not provided with specific Section 8 training
     either before or during the time she oversaw the contract. In 2005, a task force was sent
     from HUD headquarters to Los Angeles to assist in the funding process for expired
     contracts. On September 22, 2005, the task force recommended that the oversight
     monitor be provided additional training in the multifamily area from more experienced
     oversight monitor personnel as well as training regarding other HUD requirements. The
     oversight monitor did not receive this training.

     HUD also did not have specific written policies and procedures to ensure that only
     disincentives that have been incorrectly assessed are reversed upon appeal. The informal
     procedures the operations officer used did not include any steps for requesting
     clarification from HUD staff more intimately involved in the assessment of the

                                               13
       disincentives or from the contractor. In addition, these informal procedures did not
       include steps to follow up with other HUD departments or to research written criteria
       specific to the issues.

   HUD Inappropriately Moved LOMOD to Full Implementation for Incentive-Based
Performance Standard 3–Rent Adjustments and Standard 14–Contract Renewals and Did
                        Not Properly Support Its Decision


The Los Angeles Multifamily Hub inappropriately moved LOMOD into full implementation for
standards 3 and 14 and did not properly support the decision. It performed this action against the
recommendation of its project managers, in opposition to the information presented in the
monthly oversight monitor reports, against the concerns presented by OIG, and without evidence
to show that LOMOD met the required quality level on each of these standards for three
consecutive months before being moved to full implementation. As a result, LOMOD was no
longer required to submit its work product for HUD’s review, and HUD does not have assurance
that LOMOD is earned its entire basic fee and its incentive fee.

 LOMOD Stayed in Transition
 for Standards 3 and 14 for
 More Than Two Years


       HUD’s Monitoring and Evaluation Policies and Procedures states that the maximum time
       for a contractor to remain in the transitional phase is one year. However, after nearly two
       and one-half years in transition, LOMOD had not been moved to full implementation for
       standards 3 and 14.

       In addition, HUD assessed and improperly reversed several disincentives under standard
       14 (see the reversed disincentive issue above), the HUD project managers were not
       consulted on the decision to move LOMOD to full implementation even though hub
       management had previously been told the project managers recommended that LOMOD
       not be moved to full implementation until the findings from the first annual compliance
       review were resolved, the monthly oversight monitor reports showed that LOMOD was
       not ready to be moved to full implementation because it had not met the required
       acceptable quality level, and preliminary results of OIG’s examination of LOMOD
       transactions identified many additional disincentives that should have been assessed on
       these standards. In spite of these issues, the Los Angeles Multifamily Hub moved
       LOMOD to full implementation for these standards on June 1, 2006.

   Project Managers Were Not
   Part of the Decision to Move
   LOMOD to Full
   Implementation


       Although project managers worked with LOMOD on a day-to-day basis and were in a
       position to evaluate its performance, Los Angeles Multifamily Hub management did not
                                               14
    solicit the input from any of its project managers before deciding to move LOMOD to
    full implementation. HUD’s supervisory project manager said that there was nothing
    wrong with LOMOD’s work product based on the documents she reviewed. Therefore,
    there was no reason to solicit input from the project managers.

    We interviewed the two project managers that the Los Angeles Multifamily Hub
    management suggested we interview and two additional project managers. Two of the
    project managers told us that LOMOD should not have been moved to full
    implementation until the findings from the first annual compliance review were resolved.
    All four of the project managers told us that LOMOD continued to submit incorrect work
    products under standards 3 and 14 and as a result, should not have been moved to full
    implementation. Further, the Los Angeles Multifamily Hub management had previously
    been told that the project managers recommended that LOMOD not be moved to full
    implementation.

The Monthly Oversight
Monitor Reports Showed That
LOMOD Did Not Meet the
Required Acceptable Quality
Level


    According to HUD’s Monitoring and Evaluation Policies and Procedures, the contractor
    must meet the acceptable quality level for three consecutive months for each standard
    before moving from the transitional to the full implementation phase of the program. We
    reviewed the January, February, and March 2006 monthly oversight monitor reports
    because these were the last three reports that were available before LOMOD was moved
    to full implementation. The reports showed that LOMOD did not meet the required
    acceptable quality level for three consecutive months as required. The February report
    showed that LOMOD did not meet the acceptable quality level for standard 3. A
    disincentive was assessed against LOMOD for a transaction dealing with the Hacienda
    Del Norte project. The oversight monitor also wrote that there would be additional
    disincentives assessed for incorrect processing under standard 14 in that month.

    In addition, in all three reports under standard 14, the oversight monitor stated that many
    of the contract renewals processed were done under a request for extenuating
    circumstances (explanations as to why LOMOD was not at fault for not meeting the
    acceptable quality level) but without documentation in support of those circumstances.
    In addition, the required monthly supervisory project manager report was not provided to
    the oversight monitor for consideration of LOMOD’s performance. Therefore, the
    acceptable quality level could not be verified.

    HUD procedures required the supervisory project manager and the project managers to
    provide monthly reports on the contractor’s performance. These reports would have
    provided evidence as to whether LOMOD met the requirements to move to full
    implementation. However, these reports were not required by the Los Angeles
    Multifamily Hub management. Further, when we asked the operations officer and the

                                            15
         supervisory project manager whether they had any evidence to document that LOMOD
         met the requirement, they stated that they had none.

    OIG’s Examination of LOMOD
    Transactions Showed That 54 of
    84 Transactions Reviewed Were
    Processed Incorrectly


         On May 25, 2006, one week before HUD moved LOMOD to full implementation for
         standards 3 and 14, we provided HUD with information from our examination of
         LOMOD transactions, which explained that 54 of the 84 3 transactions we examined were
         processed incorrectly and included deficiencies related to

         •   Incorrect rent schedules;
         •   Incorrect, inaccurate, and/or missing dates in HUD’s Real Estate Management
             System;
         •   Unsupported annual project debt service amounts;
         •   Incorrect annual project debt service amount in HUD’s Real Estate Management
             System;
         •   Incorrect rent calculations; and
         •   Untimely and incorrect rent adjustments and renewals.

         In addition, we pointed out that Los Angeles Multifamily Hub staff spent 35 percent or
         more of its direct time on the initiative because LOMOD continued to send inadequate
         submissions to HUD for review and funding and HUD had to review these inadequate
         submissions.

    Management Ignored Key
    Factors When It Moved
    LOMOD to Full
    Implementation


         The Los Angeles Multifamily Hub inappropriately moved LOMOD to full
         implementation without proper documentation for several reasons. It ignored or did not
         fully consider various policies and procedures and other information provided, which
         showed that LOMOD was not ready to be moved to full implementation.

         Specifically, the Los Angeles Multifamily Hub ignored or did not fully consider its
         Monitoring and Evaluation Policies and Procedures, which invested the oversight
         monitor with the responsibility for making the determination of whether the contractor
         met the necessary requirements to be moved to full implementation. The oversight
         monitor was excluded from the meeting in which the decision to move LOMOD to full
         implementation was made.

3
 The 54 incorrectly processed transactions were in a preliminary finding outline. This number changed as a result
of further work performed on the audit and the incorporation of findings into this report beginning on page 10.
                                                        16
       In addition, although the Los Angeles Multifamily Hub management had previously been
       told that the project managers recommended that LOMOD not be moved to full
       implementation, management still did not request their input when making the decision.
       The concerns of OIG were ignored as well. Specifically, OIG provided a preliminary
       finding outline to hub management one week before the movement to full
       implementation. In this outline, OIG explained that 54 of the 84 submissions it reviewed
       were processed incorrectly.


 LOMOD Was No Longer
 Required to Submit Its Work
 Product to HUD for Review

       Once LOMOD was moved to full implementation for standards 3 and 14, it was no
       longer required to submit its work product for HUD’s review. Since this was no longer
       required, HUD does not have assurance that LOMOD correctly processed rent
       adjustments and contract renewals in a timely manner and in accordance with the
       acceptable quality level identified in its annual contributions contract with HUD.
       Consequently, HUD does not have assurance that LOMOD earned its entire basic fee and
       its incentive fee.

HUD Inappropriately Allowed LOMOD to Provide Some Owners with a Retroactive Rent
 Increase, Although the Owner’s Submissions Were Not Received within the Required
                                   Timeframes


Contrary to HUD’s Section 8 Renewal Policy, its Guidebook for Section 8 Contract
Administration, and a letter of clarification from headquarters, the operations officer allowed
LOMOD to provide owners with a retroactive rent increase if a partial submission was made
within the required timeframe.

 There Is a Required Timeframe
 for Submissions for Annual
 Adjustment Factor and
 Operating Cost Adjustment
 Factor Rent Adjustments


       An owner’s request for a rent adjustment using the annual adjustment factor must be
       submitted at least 60 days before the housing assistance payments contract anniversary
       date for the increase to be effective on the anniversary date. If the request is submitted
       less than 60 days before the anniversary date, the rent adjustment (rent increase) will not
       take effect until 60 days after receipt of the owner’s complete submission.

       An owner’s request for a rent adjustment using the operating cost adjustment factor under
       option one, mark-up-to-market, must be submitted at least 120 days before the expiration
       of the housing assistance payments contract. If the process is not completed within 120

                                                17
     days, through no fault of the owner, the owner is due a retroactive rent increase for any
     time over the 120 days that it takes to process the transaction. However, because 120
     days are allowed for processing time, if the owner submits a complete request less than
     120 days before contract expiration, the owner is not entitled to a retroactive rent increase
     for the number of days (up to 120 from the date of a complete submission) it takes to
     process the transaction. The owner will, however, receive a retroactive rent increase for
     any time over the 120 days it takes to process the rent adjustments.

LOMOD Requested
Clarification and HUD
Responded


     On July 26, 2005, LOMOD requested clarification from HUD stating, “As discussed, in
     cases where the owner submission is not timely or complete 120 days prior to contract
     expiration, we may still proceed to apply the rent adjustment effective the same day as
     the effective date for the contract renewal. This policy recognizes that while most
     owners are making a good faith effort to comply with the 120-day submission, very few
     submissions are submitted 100% complete and correct 120 days prior to expiration.”

     Without consideration of the two types of rent adjustments referred to above, the
     operations officer responded that this was a correct assessment of the process, and
     LOMOD began providing retroactive rent increases to owners, even when they were
     requesting annual adjustment factor and operating cost adjustment factor adjustments but
     did not make the submission within required timelines.

The Operations Officer
Misinterpreted the
Requirement


     Although the requirements and the headquarters clarification letter state that the above
     types of rent adjustment submissions must be complete within the required timeline, the
     operations officer agreed that owners who made a “good faith effort” and submitted most
     of the required documents could receive a rent increase retroactive to the housing
     assistance payments contract anniversary date even if processing was not complete by
     that date.

     In our examination of LOMOD’s transactions performed on 84 projects, we reviewed
     rental adjustments and contract renewals of expiring housing assistance contracts for
     compliance with standards 3 and 14. We used this sample to determine whether
     LOMOD paid retroactive rents to owners when the owner submission was not made to
     LOMOD at least 60 days before contract expiration for annual adjustment factor rent
     adjustments and at least 120 days for mark-up-to-market operating cost adjustment factor
     adjustments. As a result of the misinterpretation of the requirements, $38,839 in
     retroactive rent increases was improperly paid to owners that did not qualify to receive
     the funds and could have been better used to assist other low-income households.

                                              18
                                                        Total amount
  Project                           Contract no.          overpaid       AAF* total   OCAF** total
  Northpointe Apartments            CA16M000378            $     3,053    $     3,053
  Clark Seniors Apartments          CA16H113142                  2,382          2,382
  Springdale West I & II            CA16M000303                 15,912                  $   15,912
  Springdale West III               CA16M000304                 16,656                      16,656
  Palmdale Garden Apartments        CA160007006                    836                         836
  Total inappropriate retroactive rent increase              $ 38,839       $ 5,435       $ 33,404
* Annual adjustment factor
** Operating cost adjustment factor

   Contrary to HUD Requirements, the Los Angeles Multifamily Hub Did Not Monitor
   LOMOD’s Activities Pertaining to Standard 6–Voucher Review and Disbursement of
                             Payments to Project Owners


HUD did not follow its Guidebook for Section 8 Contract Administration, which requires that it
monitor standard 6 on a regular basis. In November 2004, HUD performed a compliance review
of LOMOD in which it reviewed LOMOD’s work under standard 6. However, it was unable to
provide evidence to show how it monitored LOMOD’s activities during that review. Then, from
November 2004 through at least September 2006, HUD did not monitor LOMOD’s activities
pertaining to voucher review and disbursement of payments to project activities because the
oversight monitor did not have access to the necessary HUD systems. During an interview, the
oversight monitor agreed with our statement that the Los Angeles Multifamily Hub did not
adequately monitor LOMOD’s performance on standard 6. Consequently, HUD did not ensure
that vouchers were accurately reviewed, processed, and paid in a timely manner in accordance
with HUD requirements.

 The Oversight Monitor
 Required Access to HUD
 Systems to Monitor LOMOD


       HUD’s Monitoring and Evaluation Policies and Procedures states that the primary
       systems that the contractor will use to record performance and that the oversight monitor
       will use to review the contractor’s performance are HUD’s Real Estate Management
       System, its Tenant Rental Assistance Certificate System, and its Line of Credit Control
       System. These policies and procedures further state that the oversight monitor will use
       reports generated by these systems to support the invoice review process wherever
       possible. The oversight monitor is also required to conduct a monthly random sample of
       voucher processing in the Tenant Rental Assistance Certificate System and compare the
       sample with the monthly invoice to ensure that voucher payments are made correctly and
       reflect actual performance and timing.

       Although access to the Tenant Rental Assistance Certificate System and the Line of
       Credit Control System are required for adequate monitoring, the oversight monitor did
       not have any access to these systems from April 2004 until May 2006 and did not receive
       full access until September 2006. Although neither the oversight monitor nor hub
       management had the power to make the process go faster, they did not take further steps
                                                   19
     to ensure that standard 6 was monitored, nor did they try to develop an alternate means of
     monitoring this task. The oversight monitor only reported her inability to access HUD’s
     systems in her monthly report.

     Since the oversight monitor reported her lack of access to HUD systems as early as
     October 2004 in her monthly report and continuously reported it for at least another 20
     months thereafter, the operations officer knew or should have known that the oversight
     monitor could not perform her required monitoring duties for standard 6. Although the
     operations officer told us that he thought someone in another office was performing the
     monitoring duties, it is apparent that he did not fully consider the problem statements the
     oversight monitor reported in her monthly report. Each of the monthly reports contained
     a statement such as the following from the October 2005 report:

                    [T]he CAOM [contract administrator oversight monitor]
                    has no access to HUDs Systems for monitoring…[t]he
                    AQL [ acceptable quality level]cannot be verified.

We Performed Monitoring
Steps That the Hub Should
Have Performed


     Once we determined that the Los Angeles Multifamily Hub did not monitor standard 6,
     we developed testing procedures to determine what its monitoring could have revealed.
     Specifically, we performed monitoring steps that HUD should have performed to test
     whether LOMOD used electronic funds transfers to make voucher payments to owners,
     made payment of vouchers accurately and in a timely manner, issued formal notification
     to HUD of payment discrepancies, and verified that resident data were accurate.

     Although LOMOD used electronic funds transfers to make voucher payments to owners
     its payment of vouchers was not always timely or accurate. Specifically, 3 of the 40
     vouchers we reviewed for timeliness were not processed in a timely manner. This could
     have resulted in a disincentive since the acceptable quality level for review of vouchers is
     for 100 percent to be processed so that owners receive payment no earlier than the first
     calendar day of the month and no later than the first business day of the month.
     However, LOMOD’s brief explanations in its monthly invoice did not identify where the
     fault lay, and the owners for all three vouchers in question told us that they were not
     aware of the reason for the delay of payments. The payment notification provided to
     them by LOMOD did not explain the reason for the delay. As a result, one owner
     expressed dissatisfaction with LOMOD. Although the invoice included information to
     show that many of the payments were delayed due to “Pending contract renewal in
     TRACS [Tenant Rental Assistance Certificate System]”, the oversight monitor did not
     follow up with LOMOD or other HUD personnel to resolve the issue of the delayed
     payments to determine whether the reason for the delay was justified.

     Two of the four months’ vouchers we reviewed for accuracy contained discrepancies that
     were not mentioned in LOMOD’s monthly reports to HUD. The May 2006 voucher
     month (first batch) showed that HUD wired to LOMOD $12,531,744 intended for 505
                                              20
contracts. LOMOD wired to owners only $12,528,200 for 504 contracts (a difference of
$3,544 and one contract). LOMOD’s electronic funds transfer reconciliation showed that
contract number CA160049025 represented the difference but did not provide an
explanation. Neither LOMOD’s monthly report nor the oversight monitor’s monthly
report mentioned the discrepancy. The oversight monitor might have discovered and
followed up on this discrepancy to resolve the problem if she had appropriately
monitored standard 6 on a regular basis as required. The July 2006 voucher month (first
batch) showed that HUD wired LOMOD $13,139,494 intended for 504 contracts.
LOMOD wired to owners only $13,046,085 for 502 contracts (a difference of $93,409
and two contracts). LOMOD’s reconciliation documents accounted for the discrepancy
as being due to an unestablished owner bank account for Cypress Sunrise and Wysong
Plaza. The discrepancy was not explained in its July 2006 monthly report. Its July 2006
invoice, however, stated that Wysong Plaza’s voucher payment was delayed due to
“pending REMS [Real Estate Management System] update by HUD,” but the reason
stated in its electronic funds transfer reconciliation says “pending bank account from O/A
[owner/agent].” There was no comment in the reconciliation as to when these projects
received their money or established their bank accounts. The oversight monitor’s
monthly report also did not mention the problem.

On October 19, 2006, we inquired about the $93,409 discrepancy. LOMOD told us that
it would continue to follow up with HUD and that Cypress Sunrise’s money was released
on July 27, 2006. However, as of October 20, 2006, Wysong Plaza’s payments for July
through October 2006 were still outstanding due to incorrect owner/agent information in
HUD’s Real Estate Management System.

Because HUD did not monitor standard 6, it did not follow up when LOMOD did not
provide the formal, written notification of the discrepancy required by standard 7 of the
annual contributions contract. As a result, the HUD project manager did not resolve the
problem in a reasonable amount of time and it took more than three months for the
project to receive its subsidy payments.

Further, LOMOD processed a voucher that may have contained inaccurate income
verification for one tenant. We selected one tenant from each of five vouchers for review
to determine whether the information from the Form HUD 50059, Owner’s Certification
of Compliance with HUD’s Tenant Eligibility and Rent Procedures, matched the data in
HUD’s Tenant Rental Assistance Certificate System and whether the information was up
to date and signed. One of the five tenants in the vouchers reviewed had income
information that may have been improperly obtained. Although each of the five Form
HUD 50059s reviewed matched the data in HUD’s Tenant Rental Assistance Certificate
System and the certifications were up to date and signed, the Social Security number on
the recertification questionnaire used by the project owner for income verification for one
Section 8 tenant was wrong. This Social Security number belonged to a deceased person
with the same last name as the Section 8 tenant’s middle or maiden name, but no
relationship was specified. It is, therefore, questionable whether the Social Security
income information gathered for the subject tenant was accurate. The oversight monitor
might have discovered this discrepancy if she had monitored this standard as required.



                                        21
HUD Did Not Require or
Review the Work Plan from
LOMOD for Standard 6


    Review of LOMOD’s annual work plan is required by HUD’s Guidebook for Section 8
    Contract Administration and the Monitoring and Evaluation Policies and Procedures.
    The work plan is used to monitor a contractor’s progress and to verify what
    accomplishments are billed to HUD. However, the Los Angeles Multifamily Hub did not
    require this document from LOMOD in relation to standard 6. Therefore, HUD did not
    perform the required review.

The Hub Did Not Explore
Alternative Methods of
Monitoring


    The hub did not practice due diligence to ensure that standard 6 was monitored. During
    the more than two years in which the oversight monitor did not have access to the HUD
    systems required to monitor this standard, neither she nor the operations officer took
    appropriate steps to monitor this standard. The oversight monitor said that she asked
    some of the multifamily staff to print data from HUD systems for her, but she did not get
    quality results. However, she did not take further steps to resolve the issue of not being
    able to monitor standard 6 other than reporting her inability to access HUD’s systems in
    her monthly report.

    The operations officer is responsible for supervising the oversight monitor but did not
    fully consider the problem statements that the oversight monitor reported in her monthly
    report. He was aware that for the oversight monitor to do her job, she needed access to
    HUD systems. He told us that he was also aware that the reason for the delay in getting
    her access to the required systems was that the background-check process takes a long
    time. The oversight monitor reported the access problem as early as October 2004 and
    continuously reported it for at least another 20 months thereafter. However, the
    operations officer was not aware that the oversight monitor was still having access
    problems as of our meeting with him on July 12, 2006. While the access problem was
    beyond the control of the Los Angeles Multifamily Hub, the operations officer did not
    explore alternative methods to ensure that this task was monitored during the time in
    which the oversight monitor did not have access to HUD’s systems. In addition, the
    operations officer was under the mistaken impression that the oversight monitor from a
    different office was providing the monitoring, but he did not take steps to ensure that this
    was the case.




                                             22
HUD Put an Average of $13.6
Million at Risk Each Month by
Not Adequately Monitoring
LOMOD’s Voucher Processing


     HUD put an average of $13.6 million at risk each month by not adequately monitoring
     LOMOD’s review, processing, approval, and payment of the monthly vouchers. Since
     HUD did not monitor standard 6, it did not ensure that LOMOD processed vouchers in a
     timely manner. If vouchers are not paid in a timely manner, the owners may be at risk of
     defaulting on the mortgage and risking the physical condition of the property due to
     insufficient cash flow. HUD could also face negative publicity if residents are displaced
     or living in inadequate housing. HUD also risks that LOMOD could knowingly or
     unknowingly abuse voucher funds.

     Accordingly, HUD should monitor standard 6 on a regular basis as required by the
     Section 8 Guidebook for Contract Administration and the Monitoring and Evaluation
     Policies and Procedures including but not limited to the following:

     •   Review LOMOD’s electronic funds transfer records (i.e., the flow of funds from
         HUD to LOMOD and from LOMOD to the owners to ensure accuracy and
         timeliness);
     •   Review a sample of vouchers that LOMOD
            (i)     Paid on time (to ensure voucher accuracy),
            (ii)    Disapproved (to ensure that LOMOD’s disapproval is warranted), and
            (iii) Did not pay on time (to ensure that the delay is warranted); and
     •   Monitor discrepancies to ensure that corrective actions are taken.


The Los Angeles Multifamily
Hub Did Not Fulfill Its
Responsibilities to Monitor
LOMOD’s Performance as
Contract Administrator


     As a result of the deficiencies noted, we determined that the Los Angeles Multifamily
     Hub did not fulfill its responsibilities to monitor LOMOD’s performance as a contractor.
     The Los Angeles Multifamily Hub failed to follow up on the findings of the 2004 annual
     compliance review in a timely manner and improperly assessed or reversed disincentives
     because it lacked adequate internal and management controls. It improperly moved
     LOMOD to full implementation for standards 3 and 14 because it ignored or did not fully
     consider various policies and procedures; it did not fully consider the concerns of its
     oversight monitor, project managers, and OIG; and its project managers and supervisory
     project manager were not required to provide the requisite monthly reports. In addition,
     it allowed LOMOD to pay inappropriate retroactive rent increases to owners because it
     misinterpreted the requirements. It allowed standard 6 for the review, authorization, and

                                            23
    payment of vouchers to owners to go unmonitored. Consequently, the Los Angeles
    Multifamily Hub did not fulfill its responsibilities to monitor LOMOD’s performance as
    a contractor.

Recommendations



    We recommend that the deputy assistant secretary for multifamily housing

        1A.    Appoint the staff of a hub other than the Los Angeles Multifamily Hub to
               review appeals from LOMOD to maintain objectivity.

    We recommend that the deputy assistant secretary for multifamily housing require the
    Los Angeles Multifamily Hub to

         1B. Ensure that LOMOD is not reimbursed for the $105,059 reduction in incentive
             fee for those findings in the 2004 compliance review that were improperly
             reversed.

         1C. Assess $1,360,160 in disincentives or in reductions to the incentive fee as
             appropriate for the deficiencies noted in the finding and listed in appendix C.

         1D. Require that the operations officer and the oversight monitor work together
             with the project managers in assessing disincentives and reductions to
             incentive fees and to create and implement policies and procedures for
             assessing disincentives and reductions to incentive fees.

         1E. Provide the oversight monitor with training in the Section 8 performance-
             based contract administration program to enhance her ability to assess whether
             LOMOD is performing adequately on the contract.

         1F. Require that LOMOD make the appropriate corrections and provide
             supporting documents for those findings in the 2004 annual compliance
             review for which it has not yet provided adequate documentation. In addition,
             LOMOD’s support should be provided with clear narratives for each
             supporting document provided.

         1G. Require that LOMOD create and implement policies and procedures as noted
             in the annual compliance review to ensure that deficiencies related to rent
             adjustments and contract renewals do not recur.

         1H. Discuss each of the inappropriately reversed disincentives with LOMOD to
             explain that in each case, LOMOD processing was incorrect.

         1I.   Monitor LOMOD’s standard 3 and 14 transactions until HUD can show that
               LOMOD has met the acceptable quality level for three consecutive months,


                                           24
      the findings of the annual compliance review are resolved, and the LOMOD
      errors identified in this report are resolved.

1J.   Allow the oversight monitor and project managers to participate in the
      decision to move LOMOD to full implementation as these are the employees
      with day-to-day knowledge of the work that LOMOD performs.

1K. Require the project managers and the supervisory project manager to follow
    the requirements of the Monitoring and Evaluation Policies and Procedures to
    provide a monthly report on LOMOD's performance to the oversight monitor.

1L. Clarify to LOMOD that it must not provide improper retroactive rent
    increases This will allow $38,839 in project funds to be put to better use over
    the next year.

1M. Monitor standard 6 on a regular basis as required by the Section 8 Guidebook
    for Contract Administration and the Monitoring and Evaluation Policies and
    Procedures

1N. Discuss with the oversight monitor future issues reported in her monthly
    report to ensure that it understands the issues presented and takes corrective
    actions to resolve those issues.

1O. Obtain and review an annual work plan for standard 6 from LOMOD as an
    added monitoring tool to ensure that it is making reasonable progress in what
    it is telling HUD it plans to accomplish.




                                  25
                         SCOPE AND METHODOLOGY

To achieve our audit objectives, we reviewed applicable federal regulations, HUD handbooks,
and other HUD requirements. In addition, we interviewed HUD headquarters staff, local and
other HUD staff, LOMOD staff, and management agents. We performed audit work at HUD’s
Los Angeles, California, office and the offices of LOMOD in Los Angeles, California, from
February 2006 through June 2007. Our audit generally covered the period December 2003
through January 2006 and was expanded or changed as needed.

We selected a statistical sample of 84 of the 610 Section 8 project-based projects in LOMOD’s
portfolio to determine whether LOMOD adequately reviewed the processing of contract
adjustment and renewal of housing assistance payments contracts in accordance with its annual
contributions contract. We reviewed the most current submission for the projects selected in our
sample. These submissions spanned the period November 2003 through September 2005. If the
most current submission was a budget-based adjustment and the adjustment is 5.49 percent or
higher, HUD is required to review the submission; therefore, we selected the next submission for
review.

We selected LOMOD invoices from the months between December 2004 and July 2006 to
review for determining the consequences of HUD’s lack of monitoring of the contractor’s
review, verification, and authorization of Section 8 vouchers. The basis for our selections are
noted below.

1. Timeliness of voucher payments. We selected the November 2005 and July 2006 LOMOD
   invoices to review for voucher payment timeliness. This selection was made using a
   nonstatistical process without any special reason for including or excluding any particular
   invoice. We expected each invoice selected to be representative of the population. From
   each invoice selected, we then reviewed 100 percent of the vouchers that were approved by
   LOMOD but unpaid by HUD as well as 100 percent of the vouchers that LOMOD
   disapproved. The selected invoices contained 22 and 26 (48 vouchers total) vouchers from
   the November 2005 and July 2006 invoices, respectively, that fit one of these profiles.

2. Accuracy of voucher information. We selected the December 2004, June and December
   2005, and June 2006 vouchers to review for accuracy as these were evenly spread throughout
   our audit period. To review tenant data, we then selected one contract from each voucher
   and one tenant from each contract without conscious bias and without any particular reason
   for including or excluding other contracts or tenants. We expected each contract and tenant
   selected to be representative of the population. However, when we asked for the
   documentation related to the contract selected for December 2004, we found that this project
   did not voucher for its first Section 8 payment until April 2005, so we substituted that month.
   In addition, due to a misunderstanding when we requested documents, we received
   documents for one contract for two different months. We added another tenant for this
   contract/month and reviewed those documents as well.



                                                26
3. Electronic funds transfers. Due to time constraints, we did not intentionally perform a
   statistical or nonstatistical sample of LOMOD’s electronic funds transfers. However, during
   our background research, we requested records on electronic funds transfers for November
   2005 and May, June, and July 2006. These are the records we used for our testing of the
   electronic funds transfer amounts.

4. Invoice review for basic fee calculation. We selected the December 2004, July 2005, and
   June 2006 LOMOD invoices to review for accuracy of voucher information relating to the
   number of covered units used to calculate the basic administrative fee. This selection was
   made using a nonstatistical process without any special reason for including or excluding any
   particular invoice. We expected each invoice selected to be representative of the population.

We performed our review in accordance with generally accepted government auditing standards.




                                              27
                               INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


We determined the following management controls were relevant to our audit objectives:

   •   Program operations - Policies and procedures that officials of the audited entity have
       implemented to reasonably ensure that a program meets its objectives and that unintended
       actions do not result.

   •   Compliance with laws and regulations - Policies and procedures that officials of the
       audited entity have implemented to reasonably ensure that resource use is consistent with
       laws and regulations.

   •   Safeguarding resources - Policies and procedures that officials of the audited entity have
       implemented to reasonably prevent or promptly detect unauthorized acquisition, use, or
       disposition of resources.

We assessed the relevant controls identified above.

A significant weakness exists if management controls do not provide reasonable assurance that
the process for planning, organizing, directing, and controlling program operations will meet the
organization’s objectives.




                                                28
 Significant Weaknesses


Based on our review, we believe the following items are significant weaknesses:

   •   The Los Angeles Multifamily HUD did not have any written policies and procedures to
       ensure that the oversight monitor received recommended training from more experienced
       oversight monitors as well as training regarding other HUD requirements.

   •   The hub did not have any written policies and procedures for addressing appeals to
       ensure that only incorrectly assessed disincentives were reversed upon appeal.

   •   HUD did not ensure that rent adjustments and contract renewals were processed correctly
       and on time.




                                              29
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE


            Recommendation              Ineligible 1/         Funds to be put to
                number                                          better use 2/
                   1B                          $ 105,059
                   1C                           1,360,160
                   1M                                                      38,839


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an OIG recommendation is implemented. This includes
     reductions in outlays, deobligation of funds, withdrawal of interest subsidy costs not
     incurred by implementing recommended improvements, avoidance of unnecessary
     expenditures noted in preaward reviews, and any other savings which are specifically
     identified. In this instance, if HUD implements our recommendation, housing assistance
     payments funds will not be spent on retroactive rent increases where the owner was not
     eligible to receive them.




                                            30
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1



Comment 2



Comment 3




                         31
Comment 4




Comment 5




Comment 6




            32
Comment 7




Comment 8




            33
Comment 9




            34
Comment 2



Comment 10




Comment 11




             35
Comment 2


Comment 12




             36
Comment 2

Comment 13




Comment 2

Comment 13




Comment 2

Comment 14




             37
Comment 2

Comment 15




             38
Comment 2

Comment 16




Comment 17




             39
40
                         OIG Evaluation of Auditee Comments

Comment 1   In November 2006, we received an unofficial response to our draft finding
            outlines from the oversight monitor who told us we would receive the official
            response from the Hub director. We did not receive that response, but considered
            the oversight monitor’s unofficial response when we drafted our report.
            However, her response did not change our opinion.

Comment 2   We consulted with the oversight monitor on all disincentives assessed because she
            provided us with the documentation to support her assessment of disincentives
            and she represented to us that she was responsible for assessing the disincentives.
            She told us on March 8, 2006, that in the process of generating a disincentive,
            once she receives the recommendation for a disincentive from the project
            manager or supervisory project manager, she reviews the package and if she
            agrees with the assessment, she will send an email to LOMOD identifying the
            issue. She then reviews LOMOD’s response and will either rescind the
            disincentive or write up a formal disincentive recommendation and send it back to
            LOMOD. Therefore, it is clear the oversight monitor ultimately makes the
            decision whether to assess a disincentive.

            Further, the monitoring and evaluation guide says the oversight monitor is
            responsible (among other things) to draft policies and procedures that impact
            contract administrator oversight, provide guidance to the supervisory project
            manager, and oversee the work of the supervisory project manager and the project
            managers, and is the team leader for compliance reviews. Under task 3, the
            monitoring and evaluation guide says the oversight monitor will, "...verify that
            adjustments have been processed in accordance with HUD guidelines..." and
            "...that adjustments have been processed within the required timeframes." Under
            standard 14, the oversight monitor is supposed to, "...verify that contracts have
            been renewed in a timely manner and in accordance with HUD guidelines." In
            another section, under standard 3, the oversight monitor is responsible to "...verify
            the timing of all adjustments..." This guide also states that the oversight monitor
            is responsible for all contracting issues. Disincentives are contracting issues.
            They are issued when the contract administrator is not in conformance with the
            contract. In addition, the oversight monitor told us that she provides assistance
            and guidance to LOMOD.

Comment 3   The appeal sent by LOMOD to HUD headquarters was addressed to the, “Acting
            Deputy Assistant Secretary for Multifamily Housing.” However, since he was not
            “acting” in the position, we have corrected the report to delete “acting” from his
            title.

Comment 4   The processes and procedures in place for addressing appeals of disincentives,
            including the use of an appeals committee, have not worked well in the past.
            Historically, the appeals committee has supported the assessment of disincentives
            while the operations officer has routinely granted LOMOD’s appeals. Although
            the former operations officer is no longer in the position, in the interests of

                                             41
            fairness and objectivity, we recommend that the acting deputy assistant secretary
            for multifamily housing appoint the staff of a hub other than the Los Angeles
            multifamily Hub to review appeals from LOMOD.

Comment 5   The 90-day corrective action plan implemented by the acting Hub director does
            not address the findings or the disincentives from the 2004 compliance review.
            HUD must ensure that LOMOD is not reimbursed for the reduction in incentive
            fee for those findings that were improperly reversed.

Comment 6   Policies and procedures also need to be created and implemented to ensure
            disincentives and reductions to the incentive are properly assessed and are
            consistently applied to transactions that do not meet the annual contributions
            contract’s acceptable quality level.

Comment 7   It appears HUD has misinterpreted our recommendation. We are not implying
            that LOMOD should reinterpret HUD’s policies but rather that LOMOD should
            create and implement policies and procedures to ensure that it and its
            subcontractor have controls in place to ensure it is in compliance with HUD’s
            requirements when performing its day-to-day functions.

Comment 8   We considered HUD’s verbal comments and modified recommendation 1I as
            appropriate.

            The 90-day corrective action plan (plan) states that a specific annual adjustment
            factor applies to all contracts with an anniversary date on or after the date the rate
            is published in the Federal Register. However, LOMOD is required to complete
            processing of rent adjustments within 30 days and contract renewals must be
            completed 60 days prior to the housing assistance payments anniversary date.
            The new factor may not yet be issued in these cases. HUD’s corrective action
            plan must address this possible problem.

            The plan also implies that any owner who does not submit its renewal request 120
            days prior to contract expiration will not receive a retroactive rent increase.
            However, in accordance with Section 3-7C of the Section 8 Renewal Policy
            Guide and the memorandum from the director of HUD’s Housing Assistance and
            Grant Administration, dated September 28, 2007, this policy applies only to those
            projects renewing under option 1 of the operating cost adjustment factor method.
            In addition, the Guidebook for Section 8 Contract Administration does not allow
            retroactive rents to owners of projects receiving rental adjustments under the
            annual adjustment factor method unless its submission is made at least 60 days
            prior to the housing assistance payments anniversary date. These policies do not
            apply to projects renewing or receiving rental adjustments under other methods.

            Further, the plan does not include steps for HUD to monitor and review
            transactions under standards 3 and 14 during the corrective action period as was
            done during the transition phase of contract performance. In addition, the plan



                                              42
              does not ensure that the corrective action period does not expire until HUD can
              demonstrate that LOMOD has met the acceptable quality level for three
              consecutive months as required for each standard.

Comment 9     We reviewed the packages the oversight monitor provided documenting the
              disincentives assessed and the reversal of those disincentives. Those documents
              explained why the disincentives were assessed. We did acknowledge local
              written policies and instructions that were provided to LOMOD, but did not rely
              on verbal explanation to LOMOD as a formal policy since HUD could not
              demonstrate that the verbal discussions included policy discussion.

Comment 10 The documentation and information we received from the oversight monitor did
           not show that this disincentive was assessed because an incorrect owner option
           was processed. This disincentive was assessed because LOMOD did not follow
           HUD's instruction to issue a short-term contract and LOMOD issued an incorrect
           contract due to unapproved rents.

              Although the project manager’s request for LOMOD to issue a short-term
              contract was sent to the supervisory project manager, she did not forward the
              request to LOMOD. Therefore, LOMOD should not be held accountable. In
              addition, LOMOD explained that it was following a HUD headquarters
              memorandum issued July 2, 2001. In accordance with that memorandum,
              LOMOD obtained the owner’s signature in order to expedite the process, but did
              not fully execute the contract. Therefore, it did not issue an incorrect contract.

Comment 11 In our report, we identified this project as having been assessed a disincentive
           based on standard 14 (contract renewals) because the oversight monitor’s emails
           to LOMOD stated that a disincentive was recommended related to standard 14.
           This disincentive was assessed because LOMOD inappropriately requested a rent
           comparability study from the owner resulting in a processing delay and the
           processing should have been for an amend rents only transaction under standard 3
           (rental adjustments) instead of a contract renewal under standard 14.

              We determined it was appropriate for LOMOD to request a rent comparability
              study from the owner because the old rent comparability study had expired and
              rents determined by using the old study would not be valid rents. The Guidebook
              for Section 8 Contract Administration Initiative gives the following example. “If
              the owner renewed the contract in Fiscal Year 1999 under Section 524(a)(1) of
              MAHRA [Multifamily Assisted Reform and Affordability Act] for a one-year
              term, and in Fiscal Year 2000 wishes to renew for a five-year term, the owner
              may either: a) renew the contract for four years, using the RCS [rent
              comparability study] submitted at initial renewal; or b) submit a new RCS [rent
              comparability study] and renew the contract for a five-year term.”

              The policy to which HUD refers, Section 8 Renewal Policy – Chapter Two,
              Section 2-3 supports our position. Specifically, paragraph B states, “HUD/CA’s
              [contract administrators] should make every effort to align contract renewal terms
              with the five-year life cycle of the RCS [rent comparability study].” Further,
                                               43
              Note 2 in Section 4-3A2 states that if a contract is for a period greater than five
              years, an owner must complete a new rent comparability study every five years.
              Taken together, these policies show a new rent comparability study should have
              been provided in this case. Then, the following year, when the housing assistance
              payments contract was renewed, it would be renewed for only four years, to
              coincide with the expiration of the rent comparability study.

              There was no documentation to support the assertion that LOMOD processed this
              transaction under standard 14, but HUD’s real estate management system and the
              documents provided show this transaction was processed under standard 3.

Comment 12 Our review and follow up with HUD’s real estate management system specialists
           showed that the Date Complete Package Received from Owner was input when
           LOMOD processed the transaction. However, it was later deleted by a HUD
           employee.

              HUD states that the document provided that showed dashes in the dates were
              altered by LOMOD from HUD’s real estate management system. However, it did
              not provide any documentation to support this statement. Further, HUD
              headquarters Multifamily Office of Program System Management already
              admitted shared responsibility in the erroneous system updates by LOMOD’s
              subcontractor because the real estate management system did not have controls in
              place to prevent data from being changed when LOMOD downloaded information
              from the system. Further, this transaction was not one of the transactions
              accidentally updated.

              The Date Owner Signed Submission field was not incorrect. There is no criteria
              that states if this field should be populated with the date the owner signed its
              initial submission, or the date the owner signed any subsequent submission.

Comment 13 On November 21, 2005, the oversight monitor initially assessed this disincentive.
           On December 14, 2005, the oversight monitor stated that she had completed her
           review of the documentation provided and continued to assert that this
           disincentive was warranted based on standard 3 because she said that LOMOD
           input an adjusted utility allowance in error. However, the documentation shows
           that LOMOD followed the instructions in the Real Estate Management System
           User’s Guide.

              HUD’s response also stated that it is unclear as to why this project was included
              in the audit since Multifamily identified the processing error, notified the auditors,
              and implemented corrective action. However, it was not until April 25, 2006,
              after our audit had begun, after the oversight monitor had provided us with the
              package documenting the disincentive, and as a result of the questions we began
              asking about these projects that she admitted to us that the appeal granted by the
              operations officer for this transaction was appropriate. Therefore, we stand by our
              assessment that the disincentives initially assessed based on these transactions
              were inappropriate.

                                               44
Comment 14 This disincentive was assessed based on standard 1 (management and occupancy
           reviews). The oversight monitor stated that she issued this disincentive because
           LOMOD rated the project’s management and occupancy review as satisfactory
           when it rated the project’s leasing and occupancy at below average. Although the
           oversight monitor stated that this had been discussed in various meetings with
           LOMOD, she told us this had never been issued in writing to LOMOD. Contrary
           to the HUD response, HUD Handbook 4350.1 does not contain a Section 6-10e.
           However, Section 6-11e states that, “There is no numerical formula for converting
           action codes and categorical ratings into an overall rating. The servicer must
           develop the overall rating by assessing the impact of various management
           deficiencies on a specific project. Generally, the categories of Maintenance and
           Security, Financial Management, and Leasing and occupancy on subsidized
           projects have the greatest impact on the project. Therefore, if the lowest
           categorical rating given on the Management Review report is in one of these
           categories, that categorical rating would normally be the overall rating.” This
           indicates that there could be exceptions and does not mandate that this is an
           absolute requirement. Further, in a similar situation on Orchard Park, the HUD
           project manager told LOMOD he would recommend the lower overall rating, but
           told LOMOD, “…it’s your call.”

Comment 15 The oversight monitor assessed this disincentive for three reasons, a short-term
           renewal was an incomplete work product, the contract renewal was prematurely
           received, and because a real estate management system entry was missing.

              HUD’s response to our draft audit report said that LOMOD failed to enter the rent
              comparability study data into the real estate management system for a short-term
              contract renewal. However, our audit disclosed that although LOMOD failed to
              specifically select the applicable button in HUD’s real estate management system
              to indicate a rent comparability study was required for this contract, the REMS
              User Guide says in chapter 18.3.3.1 that one of the reasons for entering into a
              short-term renewal is to allow HUD or the contract administrator to review an
              owner's comparability study. In addition, the Decision Comments section of the
              FY 2006-2: Request Renewal Without Restructuring at or Below Comparable
              Rents real estate management system screen stated that a short-term contract was
              being used to allow HUD time to review the rent comp study. In addition the
              field Reason for Short-Term Renewal said the same thing. Consequently, the
              information was in the system, so failing to select one button does not seem to
              warrant a disincentive.

              HUD’s response also said LOMOD requested funding based on the owner’s rent
              comparability system without prior HUD approval. LOMOD tried to expedite the
              process and indicated in the real estate management system that the submission
              was “in process.” This also conforms to the headquarters memorandum discussed
              under comment 10 above. Therefore, LOMOD should not have been assessed a
              disincentive on this basis.

              Further, HUD’s response identified this transaction as one in which the template
              LOMOD used to obtain updates from the real estate management system
                                              45
              accidentally updated the system with incorrect information (see comment 12).
              However, we contacted the HUD real estate management system specialist who
              provided documentation that showed that a LOMOD employee completed this
              field when the transaction was processed and this field was deleted when a HUD
              employee updated the record. Therefore, it was HUD's actions, and not
              LOMOD’s actions that caused the problem and LOMOD should not be assessed a
              disincentive.

Comment 16 The oversight monitor told LOMOD that a disincentive was being issued because,
           “…the rents appear to have been final on 2-18-2005, and processed prior to the
           posting of HUD’s approved RCS [rent comparability study] rents.” Therefore, we
           used the same date as the oversight monitor to determine if the rent comparability
           study was approved before or after the rents were final. Our audit showed that the
           rent comparability study was approved before the rents were final. Further, on
           May 22, 2006, the oversight monitor agreed that the rent comparability study was
           approved prior to the rents being finalized. Therefore, a disincentive is not
           warranted on this basis.

              LOMOD corrected the owner’s incorrect debt service prior to submitting the
              package for approval. While the package was being processed, HUD issued a
              policy that stated that LOMOD was not to make any changes to owners’ debt
              service in the submission. As a result, LOMOD changed the submission back to
              the original as submitted by the owner and should not be assessed a disincentive
              for incorrect information submitted by the owner after being told by HUD not to
              change the owner’s information.

              The incomplete real estate management system data, a blank field, was caused
              because the field was not originally a part of the system, but was added later, after
              the initial processing of this transaction. In addition, our audit revealed that
              LOMOD entered the correct contract term. Further, the documentation provided
              by the oversight monitor stated that the processing for fiscal year 2005 was
              intentionally omitted from the notice of assessed disincentive. Therefore, we did
              not review the allegation that there was inaccurate rent comparability study data.

Comment 17 This transaction was initially processed prior to the new adjustment factors being
           released. Therefore, LOMOD used the factors in effect at the time of processing.
           As a result, a disincentive is not warranted (see comment 8).




                                               46
Appendix C

  SCHEDULE OF PROJECTS THAT DID NOT COMPLY WITH
       THE ANNUAL CONTRIBUTIONS CONTRACT
Project name &          Deficiencies found/disincentives   Disincentive/unearned   Invoice month/year
contract number         recommended                        incentive amount        & standard
Rodeo Dr./Victorville   • Contract rents not renewed       $1,749 (disincentive)   April 2004
CA16M000384                 correctly                                              (standard 3)

Casa Longwood           •   HUD was not notified of the    $3,658 (disincentive)   January 2005
CA16L000136                 unit discrepancy between the                           (standard 3)
                            rent schedule and the
                            Occupancy screen in the
                            Real Estate Management
                            System

Whittier Lutheran       •   Missing date in the Real       $1,829 (disincentive)   March 2005
Towers                      Estate Management System                               (standard 3)
CA16L000117

Maple Park Apts.        •   Missing date in the Real       $732 (disincentive)     April 2005
CA16T811022                 Estate Management System                               (standard 3)

Naomi Gardens           •   HUD was not notified of the    $1,829 (disincentive)   May 2005
CA16T811017                 unit discrepancy between the                           (standard 3)
                            rent schedule and the
                            Occupancy screen in the
                            Real Estate Management
                            System

Figueroa Gardens        •   Missing date in the Real       $109,728                May 2005
                            Estate Management System       (unearned incentive)    (standard 14)
                        •   Incomplete entry in the Real                           (improperly reversed
                            Estate Management System                               disincentive/reduction
                                                                                   in incentive fee)

Willow Village          •   Missing date in the Real       $1,829 (disincentive)   June 2005
CA160034022                 Estate Management System                               (standard 3)
                        •   HUD was not notified of the
                            unit discrepancy between the
                            rent schedule and the
                            Occupancy screen in the
                            Real Estate Management
                            System
Valencia Villa Apts.    •   Missing date in the Real                               June 2005
CA160007004                 Estate Management System                               (standard 3)




                                                      47
Project name &          Deficiencies found/disincentives       Disincentive/unearned        Invoice month/year
contract number         recommended                            incentive amount             & standard
Rammton Arms            • Contract rents not renewed           $73,146 4                    June 2005
CA33M000046                 correctly                          (unearned incentive)         (standard 14)
High Valley             • Renewed contract under an                                         June 2005
                            incorrect option                                                (standard 14)
                                                                                            (improperly reversed
                                                                                            disincentive/reduction
                                                                                            in incentive fee)

St. Andrews &           •    Missing Real Estate               $114,986                     July 2005
Venice                       Management System entry           ($5,267 disincentive plus    (standard 14)
CA16M000418                                                    $109,719 unearned
Finley Square           •    Missing date in the Real Estate   incentive)
CA16L000111                  Management System
                        •    HUD was not notified of the
                             unit discrepancy between the
                             rent schedule and the
                             Occupancy screen in the Real
                             Estate Management System
St. Andrews Place       •    Missing date in the Real Estate
CA16M000414                  Management System

Rainbow Plaza           •    HUD was not notified of the       $1,828 (disincentive)        August 2005
CA16T781036                  unit discrepancy between the                                   (standard 3)
                             rent schedule and the
                             Occupancy screen in the Real
                             Estate Management System

Summer Field            •    Contract rents not renewed        $109,690                     August 2005
CA16M000352                  correctly                         (unearned incentive)         (standard 14)
                        •    Missing date in the Real Estate
                             Management System
Wycliffe Plaza          •    Missing date in the Real Estate
CA33M000056                  Management System
Subsidized Housing      •    Missing date in the Real Estate
Corp. 4                      Management System
CA160002004
Springdale West III     •    HUD was not notified of the       $8,394 (disincentive)        September 2005
CA16M000304                  unit discrepancy between the rent                              (standard 3)
                             schedule and the occupancy
                             screen in the Real Estate
                             Management System
Lions Community         •    Missing date in the Real Estate
Manor                        Management System
CA16T791002
Villa La Jolla          •    Missing date in the Real Estate
CA160059002                  Management System

Springdale West I &     •    Missing date in the Real Estate
II                           Management System
CA16M000303


4
 If LOMOD has been reimbursed for the reduction in incentive fee resulting from the operations officer’s reversal
of High Valley’s assessed disincentive, the total amount will be $109,719 instead of $73,146.
                                                        48
Project name &      Deficiencies found/disincentives       Disincentive/unearned   Invoice month/year
contract number     recommended                            incentive amount        & standard
Anaheim Memorial    • HUD was not notified of the
Manor                   unit discrepancy between the
CA16T851008             rent schedule and the
                        Occupancy screen in the Real
                        Estate Management System.
                    • Submission was not processed
                        in 30 days (date the initial
                        submission was received: June
                        8, 2005; date the complete
                        package was received: July 11,
                        2005 (LOMOD listed Aug. 29,
                        2005); date the submission sent
                        was to HUD: Sept. 29, 2005)
Summer Field        • Missing date in the Real Estate      $109,485                September 2005
CA43L000002             Management System                  (unearned incentive)    (standard 14)
Roscoe Park Apts.   • Missing date in the Real Estate
CA16M000397             Management System
Reseda Park Apts.   • Missing date in the Real Estate
CA16M000207             Management System
                    • HUD was not notified of the
                        unit discrepancy between the
                        rent schedule and the
                        Occupancy screen in the Real
                        Estate Management System
Rayen Park Apts.    • Missing date in the Real Estate
CA16M000254             Management System
                    • HUD was not notified of the
                        unit discrepancy between the
                        rent schedule and the
                        Occupancy screen in the Real
                        Estate Management System
Green Hotel         • Missing date in the Real Estate
CA16L000041             Management System
                    • Submission not processed
                        within 30 days (date the initial
                        submission received: Feb. 11,
                        2005; date the complete
                        package was received: Feb. 25,
                        2005 (LOMOD listed April 8,
                        2005); date the submission was
                        sent to HUD: Apr. 29, 2005)
Highland Manor      • Missing date in the Real Estate
Apts.                   Management System
CA33L000073
Candlewood Apts.    •   Entry into the Real Estate
CA160004002             Management System was
                        unsupported.
Meadowbrook         •   Incomplete entry in the Real                               (improperly reversed
                        Estate Management System                                   disincentive/reduction
                                                                                   in incentive fee)




                                                   49
Project name &          Deficiencies found/disincentives    Disincentive/unearned    Invoice month/year
contract number         recommended                         incentive amount         & standard
Clark Senior Apts.      • HUD was not notified of the       $2,190 (disincentive)    October 2005
CA16H113142                 unit discrepancy between the                             (standard 3)
                            rent schedule and the
                            Occupancy screen in the Real
                            Estate Management System
39th Place Apts.        • Contract rents were not renewed
CA16L000131                 correctly
                        • HUD was not notified of the
                            unit discrepancy between the
                            rent schedule and the
                            Occupancy screen in the Real
                            Estate Management System
Jessie L. Terry Manor   • Incorrect Real Estate             $109,485                 October 2005
CA16M000199                 Management System entry         (unearned incentive)     (standard 14)

Carlota Park Apts.      •   HUD was not notified of the
CA16M000344                 unit discrepancy between the
                            rent schedule and the
                            Occupancy screen in the Real
                            Estate Management System

Peppertree Apts.        •   HUD was not notified of the     $109,457                 November 2005
CA16R000004                 unit discrepancy between the    (unearned incentive)     (standard 14)
                            rent schedule and the
                            Occupancy screen in the Real
                            Estate Management System

Rancho Niguel           •   HUD was not notified of the     $7,434 (disincentive)    December 2005
CA160050003                 unit discrepancy between the                             (standard 3)
                            rent schedule and the
                            Occupancy screen in the Real
                            Estate Management System

Jewel Terrace           •   HUD was not notified of the     $43,730                  December 2005
CA16L000018                 unit discrepancy between the    (unearned incentive)     (standard 14)
                            rent schedule and the
                            Occupancy screen in the Real
                            Estate Management System
Preservation II         •   Missing rent schedule           $2,624 (disincentive)    January 2006
CA16L000100                                                                          (standard 3)
Coachella Valley        •   HUD was not notified of the     $156,365                 January 2006
CA16R000009                 unit discrepancy between the    ($25,186 disincentive    (standard 14)
                            rent schedule and the           plus $131,179 unearned
                            Occupancy screen in the Real    incentive)
                            Estate Management System




                                                     50
Project name &          Deficiencies found/disincentives        Disincentive/unearned        Invoice month/year
contract number         recommended                             incentive amount             & standard
Sunnyview Villa         • Submission not sent to HUD 60
CA160021004                 days before expiration (date the
                            initial submission was received:
                            Jan. 27, 2005; date the complete
                            package was received: Jan. 27,
                            2005 (LOMOD listed April 25,
                            2005); Submission due to HUD:
                            Apr 1, 2005; date the
                            submission was sent to HUD:
                            Apr. 29, 2005)
Hacienda Del Norte      • Incorrect Real Estate                                              (improperly reversed
                            Management System entry                                          disincentive/reduction
                                                                                             in incentive fee)
Gardena South Park      •    HUD was not notified of the        $131,198                     February 2006
CA16T831001                  unit discrepancy between the       (unearned incentive)         (standard 14)
                             rent schedule and the
                             Occupancy screen in the Real
                             Estate Management System

Arrowhead Vista         •    HUD was not notified of the        $129,397                     March 2006
CA16T821025                  unit discrepancy between the       (unearned incentive)         (standard 14)
                             rent schedule and the
                             Occupancy screen in the Real
                             Estate Management System
Valley Village #3       •    HUD was not notified of the
CA16T781041                  unit discrepancy between the
                             rent schedule and the
                             Occupancy screen in the Real
                             Estate Management System

Woodman Nordhoff        •    Delay of processing the contract   $129,397                     April 2006
CA16M000345                                                     (unearned incentive)         (standard 14)
                                                                                             (improperly reversed
                                                                                             disincentive/reduction
                                                                                             in incentive fee)

Sheridan South Villas   •    Missing date in the Real Estate    $0 5
CA16L000159                  Management System

Total                                                           $1,360,160
                                                                ($64,549 disincentives
                                                                plus $1,295,611
                                                                unearned incentives)




5
 This transaction was not billed to HUD. Therefore, there is no associated disincentive for this incorrect work
product.
                                                         51
